Office of Inspector General
    Audit Report



FTA CAN IMPROVE PROCEDURES TO
    ENSURE MORE EFFECTIVE
IMPLEMENTATION OF THE CHARTER
      SERVICE REGULATION
      Federal Transit Administration

      Report Number: MH-2012-132
       Date Issued: May 17, 2012
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FTA Can Improve Procedures To                                            Date:    May 17, 2012
           Ensure More Effective Implementation of the
           Charter Service Regulation
           Federal Transit Administration
           Report No. MH-2012-132

  From:                                                                                  Reply to
           Joseph W. Comé                                                                Attn. of:   JA-40
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Federal Transit Administrator

           For over 30 years, private charter operators and public transit agencies have
           debated the conditions under which federally funded transit agencies can provide
           charter service without hindering the economic opportunities of private charter
           companies. Some public transit agencies view Federal procedures for charter
           service as an administrative burden, while some private charter operators claim
           that publicly funded transit agencies will force them out of business. The Federal
           Transit Administration (FTA) is responsible for the charter service regulation, first
           issued in 1976, which generally prohibits public transit agencies that receive FTA
           funds from providing charter service when a private charter operator is interested
           in providing the service. This regulation impacts a wide spectrum of transportation
           services throughout the country, from transportation to national sporting events in
           major cities to smaller events in rural communities, such as transportation for the
           elderly. In January 2008, FTA amended the charter service regulation to clarify
           disputed provisions regarding competition between private charter operators and
           federally funded public transit agencies. 1




           1
               FTA published the charter service final rule on January 14, 2008 (73 FR 2326). The revision was FTA's response to
               congressional direction to reexamine the charter service regulations. This directive was included in a Joint
               Explanatory Statement of the Committee of Conference of the Safe, Accountable, Flexible, Efficient Transportation
               Equity Act: A Legacy for Users, enacted on August 10, 2005. FTA last made significant revisions to the regulation
               in 1987.
                                                                                                                     2


The Senate Committee on Appropriations directed our office to study FTA’s
charter service regulation and its effect on the quality and price of transit services. 2
Specifically, we (1) evaluated FTA’s implementation of the charter service
regulation and (2) assessed the impact of FTA’s 2008 revisions to the charter
service regulation at selected locations.

To conduct this audit, we selected 4 case study locations in which 13 events
occurred. We selected these case studies based on geographic location, population,
receipt of Federal funds, and information gathered through discussions with public
and private stakeholders. We visited or contacted 46 organizations, interviewed
officials from FTA, and reviewed FTA’s private charter registration database.
Although we identified specific issues involving each case study, the unique
nature of each community prevented us from making nationwide projections based
on the results of our fieldwork. We conducted this audit from November 2010
through March 2012 in accordance with generally accepted Government auditing
standards. Exhibit A describes our scope and methodology, and exhibit B lists the
organizations we visited or contacted.

RESULTS IN BRIEF
In response to congressional direction, FTA in 2008 put improved procedures in
place for overseeing the implementation of the charter service regulation.
Examples of these improvements include procedures for responding to industry,
public transit agency, and public concerns and for notifying private charter
operators of potential business opportunities. However, we identified weaknesses
in FTA databases designed to implement the new procedures. For example, FTA
established a registration database of more than 600 private charter operators to
better apprise them of potential business opportunities, but the database includes
inaccuracies in 39 (over 6 percent) of the 609 total records and lacks a link to
Federal Motor Carrier Safety Administration (FMCSA) information on private
charter industry performance and safety. These weaknesses reduce the database’s
usefulness to public transit agencies and private charter operators. For instance,
FTA’s database listed 24 private charter operators as active even though FMCSA
had revoked their operating authority. 3 FTA also designated an ombudsman to
facilitate a formal process for FTA to respond to private charter operators, public
transit agencies, and other stakeholders’ concerns 4—through a public docket

2
    S. Rep. No. 111-69 at 92 (August 2009) (Senate Committee Report accompanying H. Rep. No. 3288, the bill making
    fiscal year 2010 appropriations for the Department of Transportation and Housing and Urban Development and
    Related Agencies).
3
    FMCSA's Licensing and Insurance and Safety and Fitness Electronic Records databases contain company profile and
    safety related information on private companies providing passenger carrier services, including status of operating
    authority.
4
    FTA's Office of Chief Counsel issues advisory opinions in response to questions submitted by any interested party
    about factual matters regarding charter service.
                                                                                                                        3


system—about how to apply the regulations. Yet, the public docket system
contained some incomplete, outdated, and duplicate information. For example,
FTA did not post a response to a request for an advisory opinion until over 1 year
after the initial request was received. FTA’s database problems and delayed
postings of decisions in the public docket system create the risk of transit agencies
and private charter operators’ misunderstanding the regulation and could limit the
effectiveness of FTA’s new procedures.

Revisions to the charter service regulation had varying impacts on the cost,
availability, and quality of charter services in our case study communities.
Out-of-pocket costs for consumers and events sponsors increased in 6 of 13 events
we reviewed. For example, the out-of-pocket costs for fans using transportation
from park-and-ride lots to major sporting events in Baltimore, Maryland, increased
from $10 to $20 when private charter operators began offering the service.
However, we could not compare overall costs of charter services because of a lack
of available data and differences in how public transit agencies and private charter
operators determine the costs of their charter services. 5 Additionally, the revised
regulation impacted the availability of services at certain locations. For example,
public transit agencies in some rural and nonurbanized areas were unclear about
how to use the exceptions for human service organizations, such as groups
transporting the elderly, and consequently, stopped offering transportation for such
trips. We also identified impacts of the revised regulation on the quality of
accommodating disabled passengers, mitigating traffic congestion, and planning
for emergencies at large events. For example, some event sponsors in Ames, Iowa,
and Seattle, Washington, reported increased loading and unloading times for
passengers after the transition to private charter operators. Although FTA
conducted initial outreach to educate charter service stakeholders, these
stakeholders—especially in rural communities we visited—continue to request
clarification of FTA’s charter service requirements.

We are making a series of recommendations to improve FTA’s implementation of
the charter service regulation.

BACKGROUND
In response to concerns expressed by both public transit agencies and private
charter operators over the FTA regulations on charter service, Congress directed
FTA to initiate a rulemaking to identify and implement improvements to the
regulations. On January 14, 2008, FTA published a final rule that made significant

5
    Private charter operators were reluctant to share pricing information due to its business sensitive nature. We received
    pricing information from only 1 of the 11 private charter companies we interviewed. In addition, public transit
    agencies determined their prices using only the marginal cost of the service without considering Federal subsidies for
    capital expenses, such as buildings and transit vehicles.
                                                                                                                      4


changes to the regulation (see exhibit C for a description of the detailed changes in
the regulation). 6 The regulation applies to recipients of Federal financial
assistance, primarily public transit agencies. FTA does not regulate private charter
service markets.
Specifically, the rule:
    • revised the definition of charter service, while also offering flexibilities
      through exceptions in the rule to fulfill public transit agencies’ community-
      based public transportation missions.
    • created a private charter registration database that allows private operators to
      indicate their geographic service area of charter service and provides a
      mechanism for public transit agencies to notify private charter operators of
      business opportunities.

    • identified exceptions to and exemptions from the rule when public transit
      agencies may provide charter service. For example, public transit agencies can
      provide charter service by petitioning the FTA Administrator for an exception
      due to (1) events of regional or national significance, (2) hardship for areas
      with a population less than 200,000, and (3) unique time-sensitive events.

    • revised the processes through which private charter operators and public transit
      agencies may request advisory opinions and file complaints and began posting
      FTA decisions on the Federal Document Management System (FDMS).

    • revised penalties for violations of the regulation and FTA processes for
      investigations and hearings related to complaints.
    • created a qualified human service registry that allows organizations that serve
      individuals with low income, advanced age, or disabilities to register with FTA
      to receive free or reduced rate services from a public transit agency.
In December 2009, Federal legislation 7 included an exemption from the charter
service regulation to restore the ability of King County Metro Transit to provide
charter service to a number of major sporting and special events in Seattle,
Washington. Private charter bus associations sued FTA, arguing that the Seattle
exemption was unconstitutional. In June 2010, the U.S. District Court for the
District of Columbia issued an opinion favoring the private charter bus
associations. FTA appealed the decision. In June 2011, the U.S. Court of Appeals


6
    From May 2006 to March 2007, FTA conducted a negotiated rulemaking process that involved representatives from
    key stakeholder groups. Although the stakeholders did not reach a consensus on all issues, the negotiated rulemaking
    formed the basis for the revised regulation that FTA published on January 14, 2008.
7
    Consolidated Appropriations Act of 2010, Pub. L. No. 111-117, § 172 (2009).
                                                                                   5


for the District of Columbia issued a decision 8 that overturned the lower court
ruling that had effectively blocked the exemption. As a result of the 2011 decision,
King County Metro Transit is allowed to continue providing charter service to
major events in Seattle.

FTA ESTABLISHED IMPROVED PROCEDURES TO IMPLEMENT
THE CHARTER SERVICE REGULATION, BUT DATA
WEAKNESSES REDUCE THEIR EFFECTIVENESS
FTA put improved charter service procedures in place to clarify requirements,
maintain flexibility, and increase transparency. These include (1) designating an
ombudsman to facilitate FTA’s response to industry, public transit agency, and
public concerns; (2) establishing a private charter registration database that
notifies private charter operators of potential business opportunities; and
(3) creating a process for Qualified Human Service Organizations (QHSOs) that
serve individuals with low income, individuals with disabilities, or the elderly to
receive free or reduced rate transportation services. The regulation also revised
penalties for public transit agencies that violate charter service requirements.
However, we identified data quality and timeliness problems in two key systems
designed for ensuring effective implementation of the regulation—the private
charter registration database and the public docket system through which FTA
posts advisory opinions and complaints. Additionally, FTA missed an opportunity
to facilitate public access to important private charter information that FMCSA,
the lead agency for bus safety, tracks and maintains.

FTA Improved Oversight Procedures in the 2008 Revision

FTA’s 2008 revision of the regulation established agency procedures intended to
clarify requirements, maintain flexibility, and increase transparency. Significantly,
the regulation created a new ombudsman position in the Office of the Chief
Counsel. The ombudsman receives direct inquiries related to charter service and
facilitates the centralized advisory opinion and complaint process. Previously,
complaints and inquiries were submitted to 1 of the 10 FTA regional offices for
processing. According to industry and public transit agency officials, creating the
ombudsman position has improved the consistency and timeliness of responses to
questions related to the regulation. In addition to the ombudsman position, FTA
now maintains a public docket system to track and disseminate consistent
information on agency advisory opinions and interpretations of requirements,
complaints filed against public transit agencies or private charter operators, and
petitions to the FTA Administrator for exceptions under the regulation.


8
    American Bus Association v. Rogoff, 649 F.3d 734 (D.C. Cir. 2011).
                                                                                                                   6


FTA also established a private charter registration database that allows public
transit agencies that receive requests to provide charter service to notify private
charter operators of business opportunities. When a private charter operator
expresses interest in a charter service, the public transit agency can no longer be a
candidate for providing that service. Before the 2008 revision, there was no
systematic way for public transit agencies to inform private charter operators of
these opportunities. At the time of our review, private charter operators seeking
charter service opportunities had submitted 609 records to the private charter
registration database.
Additionally, FTA created exceptions for QHSOs to receive free or reduced rate
services from a public transit agency. These exceptions are intended to support
transit agencies providing community-based services to individuals with low
income, advanced age, or disabilities. The revised charter service regulation
provides an automatic exception to the regulation for QHSOs that receive funding
from 1 of 64 Federal human service programs listed in the regulation. 9 Moreover,
the revised regulation creates a registry for QHSOs that do not receive assistance
from 1 of 64 Federal human service programs listed in the regulation and allows
them to apply for an exception to the regulation. At the time of our audit, FTA had
approved 54 QHSOs to seek services from public transit agencies.
Finally, FTA’s 2008 revision modified the penalties for transit agencies violating
the charter service regulation. Specifically, transit agencies that violate the
regulation face fines ranging from $100 to $25,000 depending on the severity of
the violation. For example, a South Dakota public transit agency was fined $100
for providing charter service for a bachelor party. FTA also assesses compliance
with this rule during its triennial reviews 10 and State management reviews of
grantees.
Data Weaknesses Reduce FTA’s Effectiveness in Implementing the
New Procedures

Our review identified weaknesses in FTA databases, including data quality issues,
delayed posting of information, and the absence of a link to FMCSA’s private
charter industry performance and safety information. Currently, FTA conducts
limited reviews of the private charter registration database and the charter service
information in the public docket system where FTA posts advisory opinions and
complaints. Without access to accurate, timely, and relevant information, the

9
     In Appendix A of 49 C.F.R. 604, FTA provides a list of Federal programs providing funding for human services
     entitled Listing of Human Service Federal Financial Assistance Programs. If a QHSO receives funding from one of
     these programs, it does not have to register with FTA in order for public transit agencies to provide community-
     based charter services.
10
     Congress mandates compliance reviews every 3 years for transit agencies receiving Section 5307 funding. FTA uses
     the triennial review as a management tool for examining grantee performance and adherence to current FTA
     requirements and policies. The review examines 23 areas, including charter service.
                                                                                                                            7


effectiveness of FTA databases to facilitate charter service opportunities and to
keep stakeholders informed is reduced.

Of the 609 records in the private charter registration database, over 6 percent were
inaccurate, including 17 records with no geographic service area listed and
22 duplicate records. Records that do not designate a geographic area would not
result in private charter operators receiving information on potential business
opportunities. According to FTA, the charter service ombudsman reviews the
private charter registration database to remove outdated information and to
compare the information to FMCSA’s databases. Our review found only
one record that had not been updated within 2 years, as required by the
regulation. 11 FTA compares its data with FMCSA’s databases to verify the
USDOT number, 12 contact information and address, and the number of vehicles
stated in the registration. However, we found that FTA’s reviews of the private
charter registration database did not identify some private charter operators with
potential operating authority and safety concerns. We compared the information in
FTA’s private charter registration database with safety and company profile
information that FMCSA, the regulator of the passenger carrier industry,
maintains. We identified 24 operators whose operating authority FMCSA had
involuntarily revoked 13 and 4 operators who had authority to operate in only
1 State, yet had registered with FTA to operate in multiple States. Additionally,
FMCSA had placed one private charter operator registered with FTA out of
service for employing drivers who did not meet medical and driver’s license
qualifications and for refusing to pay fines for those violations.

Further, FTA has yet to fully leverage FMCSA’s passenger-carrier industry data to
identify inaccuracies in private charter information submitted to FTA. As the lead
agency focused on the safety of the motor and passenger carrier industry,
FMCSA’s Licensing and Insurance database and Safety and Fitness Electronic
Records (SAFER) database can provide an important tool to help FTA verify a
private charter’s insurance coverage, confirm the charter’s geographic service
area, validate an operator’s proper operating authority, and check each charter’s
safety rating. Although FMCSA has created a Web site for persons or



11
     Although the charter service regulation applies only to FTA grantees and FTA does not regulate private charter
     operators, the revised regulation requires that private charter operators provide current, accurate, and updated
     information at least every 2 years or FTA removes their information from the database.
12
     Companies that operate commercial vehicles transporting passengers or hauling cargo in interstate commerce must
     be registered with FMCSA and must have a USDOT number. The USDOT number serves as a unique identifier
     when collecting and monitoring a company's safety information acquired during audits, compliance reviews, crash
     investigations, and inspections.
13
     Involuntary revocation occurs when FMCSA cancels a carrier’s authority to operate. For example, FMCSA could
     cancel a carrier's authority if the carrier’s insurance lapses. Operating authority could be reinstated once a carrier has
     corrected deficiencies.
                                                                                                                8


organizations interested in passenger-carrier safety information, 14 FTA does not
provide a direct link to it on its charter service Web site.

We also found data quality and timeliness problems in the Federal Document
Management System (FDMS), the system FTA uses to post advisory opinions,
petitions for exception, complaints, cease and desist orders, complaints for
removal, and hearings regarding the charter service regulation. Of the 112 FDMS
records we reviewed related to charter service, we identified 3 duplicate records
and 1 request posting that did not link to a corresponding document. We also
found 28 advisory opinions, complaints, and petitions—some going as far back as
2008—that did not have decisions posted on FDMS. Additionally, FTA has not
consistently met its goal of responding to advisory opinions within 10 days of a
request. Rather, its average response time is 38 days. For example, FTA responded
directly to individual parties involved in a March 2010 request for an advisory
opinion in May of 2010, but the response was not posted on FDMS until July
2011. According to FTA, delays in responding to requests for advisory opinions
are caused by the need to collect information from the various parties involved in
an event and the associated services provided. However, arrangements for charter
services are time-sensitive due to event scheduling. FTA’s delayed posting of
interpretations of the regulation and actions related to charter service creates the
risk of event sponsors, private charter operators, and public transit agencies
misinterpreting the regulations’ requirements.

IMPACT OF THE REGULATION ON COST, AVAILABILITY, AND
QUALITY OF CHARTER SERVICES VARIED, BUT FTA CAN DO
MORE TO ENSURE CONSISTENT INTERPRETATION OF THE
REGULATION
The impact of FTA’s revised charter service regulation on the cost, availability,
and quality of charter services in our case study communities varied according to
the uniqueness of each community and their transportation needs. The most
significant impacts on transportation services stemmed from the revised definition
of charter service. For example, many transportation services provided for public
events, such as festivals or sporting events, that public transit agencies viewed as
public transportation under the old definition of charter service, are now
considered charter service. Several private charter operators and public transit
agencies misunderstood the revised regulation, which affected the availability and
quality of service they provided. While FTA initially reached out to help providers
understand and comply with the revised regulations, those efforts eventually
subsided.

14
     Bus and Passenger Carrier Information Web site: http://www.fmcsa.dot.gov/safety-security/pcs/Index.aspx.
                                                                                     9


Costs, Availability, and Quality of Charter Service Varied in Each
Case Study

Costs. The out-of-pocket costs to consumers and events sponsors increased for
6 of the 13 events we reviewed in our case study locations—a major concern of
event sponsors and transit agencies. For example, we found that riders traveling
from park-and-ride lots to major sporting events in Baltimore, Maryland,
experienced a $10 increase in out-of-pocket costs when private charter operators
began providing the service. Additionally, a non-profit event organizer in Seattle,
Washington, reported over $100,000 in additional fees when using a private
charter operator to provide service comparable to that previously provided by a
public transit agency. Differences in costs were also apparent in Seattle,
Washington, even after FTA exempted King County from the regulation in
December 2009. During the 2010 University of Washington football season, the
King County Metro Transit was unable to provide service for a day game that
occurred during Seattle’s rush hour. According to University officials, the cost of
using private charter operators for the one game was more than $580,000, which
exceeded the cost the university spends on transportation with King County Metro
Transit for an entire season.

Although out-of-pocket costs to consumers increased for the events we reviewed,
we could not assess and compare the full costs of charter service between public
transit and private charter operators for any of the events. Private charter operators
would not disclose their cost and pricing data because they consider it business
sensitive information. However, we were able to identify the different factors the
public and private organizations used to determine the costs of services. Private
charter operators used fixed costs, such as payments of bus loans (principal and
interest), rent, maintenance, daily operations and insurance; variable costs, such as
fuel, tolls, drivers’ salaries, workers’ compensation and benefits; and profit to
calculate the full cost of a charter service. The largest cost for private operators is
the equipment, with buses averaging $500,000 each. In contrast, the factors public
transit agencies use to develop rates for charter services primarily include drivers’
wages, fuel, and maintenance. Additionally, public transit agencies may receive up
to 80 percent of their funding for certain capital costs from the Federal
Government. They also receive a full fuel tax exemption, compared to private
charter operators’ partial fuel tax exemption.

Availability. Although event sponsors and consumers remain concerned about the
increase in out-of-pocket costs following the 2008 revision of the regulation, the
availability of charter services was successfully maintained in some areas. For
example, a consortium of five private charter operators came together to provide
park-and-ride transportation to and from the Baltimore Ravens games after the
Maryland Transit Administration (MTA) discontinued its services for the events.
                                                                                 10


At three large urban areas we visited, stakeholders believed private charter
operators were more effective in providing certain transportation services.
According to transit officials in Seattle, Baltimore, and Washington, D.C., many
of the charter services they were providing before the 2008 regulation would be
provided more efficiently by private charter operators, especially for events that
required moving small groups of people. For example, Seattle’s King County
Metro Transit was agreeable to transitioning 24 of its 29 events, such as craft and
garden shows, to private charter operators.

In contrast, the availability of charter service in some rural and nonurban areas
was adversely affected. Increased penalties and a lack of understanding of the
regulation’s exceptions led some rural and nonurban transit agencies to
discontinue services without a private charter operator to fill the transportation
need. According to regional transit officials in Iowa and South Carolina, there are
few or no private charter operators in their areas. These officials also stated that
the available private charter operators were either unwilling to fill the need
because of the costs or submitted expensive quotes to cover costs. For example,
one rural transit agency in Iowa provided examples of three trips for seniors that
were canceled due to the high costs of private charter transportation, such as that
for a 4-hour trip for 15 low-income seniors at costs ranging from $680 to $1,600
per trip.

Quality. Revisions to the regulation also had varying impacts on the quality of
transportation. We spoke to charter service stakeholders in our case studies about
vehicle characteristics, transportation of persons with mobility problems, traffic
congestion, and contingency planning in the event of an emergency. The
regulation prevents requests for charter service from specifying characteristics of
buses that would eliminate private charter operators. That is, a request for charter
service cannot specify a requirement for buses with low floors or buses fueled by
natural gas because public transit agencies typically own these types of assets. The
public transit agencies and event sponsors we interviewed stated that the
differences between vehicles owned by private charter operators and public transit
agencies affected quality. Many of the private charter operators own over-the-road
buses or vans designed for comfort of passengers on longer trips, whereas public
transit buses are designed to move large numbers of people quickly. For example,
event planners for a bicycling event in Ames, Iowa, stated that passengers
experienced longer load and unload times on private charter buses taking them to
and from the event because the buses lacked two doors and passengers had to
climb steps to board the buses. On the other hand, officials with the Seattle
Seahawks reported that fans riding private charter, over-the-road coaches to
football games had a positive experience on private charter buses that included
amenities such as rest rooms.
                                                                                                             11


Most event sponsors and at least one private charter operator in our case studies
expressed concern over the quality of service for passengers with mobility issues.
We did not find any instances where a private charter operator violated the
Americans with Disabilities Act (ADA) in our case studies, but private charter
operators and public transit agencies have different regulations and requirements
for compliance with the ADA. Public transit vehicles must be 100 percent ADA
compliant, whereas private charter operators must be able to provide
ADA-compliant vehicles within 48 hours of receiving a request for such service.
One private charter operator in Iowa experienced challenges transporting
passengers for the National Veterans Golden Age Games. The company stated that
it was looking into purchasing transit style buses to service events where there
may be large numbers of people with mobility issues. Other private operators
stated that for major events they supplement their normal fleet with ADA-
compliant vehicles to meet the demand of passengers with mobility problems.

The revised regulation also impacted local officials planning efforts to mitigate
traffic congestion in one case study location. Specifically, public transportation
was an integral factor in the planning and development of urban stadiums in
Seattle before FTA revised the regulation. Seattle is bordered by large bodies of
water and has a limited number of highways servicing the areas where the large
stadiums are located. To mitigate congestion and limit disruption to city
commuters, city planners included the use of King County Metro Transit vehicles
in Transportation Management Plans during the development phase of the
stadiums. Representatives from the community, local government, and event
sponsors negotiated these plans. After the 2008 regulation revision, several major
event sponsors in Seattle switched to private charter operators for transportation.
According to local officials and event sponsors at Seafair 15 and the University of
Washington, they experienced several challenges in transitioning to private charter
operators. These challenges included slow loading and unloading times, the use of
out-of-town drivers who were unfamiliar with local traffic patterns and streets, and
poor communications with police responsible for traffic management.

In another case study, the revised regulation affected plans to respond to an
emergency at large sports stadiums. City officials in Baltimore, Maryland,
considered public transportation when developing contingency plans in the event
of an emergency at downtown stadiums. Both local and Baltimore Ravens officials
considered public transit drivers and vehicles more prepared to respond in the
event of an emergency. According to Ravens officials, if an emergency were to
happen at the stadium, transit bus drivers would have already been trained in
evacuation and emergency response procedures, unlike private charter drivers.


15
     Seafair is Seattle's 60-year-old summer festival focused on community events. The festival includes parades,
     hydroplane boat races, and air shows.
                                                                                     12


Although not part of their standard training, private charter operators stated that
they could also assist in an emergency response if needed.

Elements of the Revised Regulation Remain Unclear for Some Private
Charter Operators and Public Transit Agencies

Our case studies identified several instances in which either private charter
operators or public transit agencies did not clearly understand the regulation,
which underscores the ongoing challenge FTA faces in ensuring stakeholders
comply with the regulation. Some rural transit officials have expressed a need for
additional FTA outreach because they do not fully understand how to navigate the
regulation’s QHSO provisions. For example, according to a rural Iowa public
transit agency, it did not understand why the regulations permit the public transit
agency to provide transportation for a QHSO but not to other community
organizations that provide similar services, such as transportation of preschool
children to activities. Local officials also stated that the rural transit agency is the
only organization in the vicinity that provides transportation assistance and cannot
understand why an out-of-town private charter operator is brought in to provide
transportation for a 2-mile trip. Another rural Iowa transit organization with two
employees stated that it lacks the manpower to review and get a clear
understanding of this particular provision of the regulation, and views the process
of applying for a waiver or exception under the regulation as an administrative
burden. According to FTA, one of the purposes of the exceptions in the regulation
is to maintain flexibility for public transit agencies in nonurbanized and small
urbanized areas to provide community-based public transportation, such as serving
individuals with mobility limitations due to age, disabilities, or level of income.

Additionally, officials in Seattle requested that FTA either clarify the intent of the
rule regarding the leasing of publicly funded transit assets or revise the regulation.
Specifically, a private charter operator in Seattle contracted to provide charter
service that King County Metro Transit previously provided to University of
Washington football games. The private charter operator certified to the public
transit agency that it had sought assistance and vehicles from all other companies
in the geographic area and no assistance was available. As a result, the university
agreed to allow the private charter operator to lease all transportation services
from King County Metro Transit. For a period, the university paid the private
charter operator, which in turn paid the public transit agency to provide the entire
service. While the parties involved met the requirements of the regulation, transit
officials questioned whether the leasing of all or most of the service from public
transit aligned with the intent of the rule and unnecessarily increased the
university’s costs.
                                                                                  13


Ultimately, officials at King County Metro Transit suggested that FTA revise the
regulation to include a requirement for private charter operators to provide some
meaningful percentage of the service before being allowed to lease from public
transit agencies. FTA officials stated that exceptions have been granted to public
transit agencies in situations where no private charter operator can provide all the
needed service. According to the private charter operator in the University of
Washington situation, it was not given an opportunity to demonstrate its ability to
perform the service before King County was exempted from the rule.

As the Federal agency responsible for issuing the charter service regulation, FTA’s
role is to provide information so that stakeholders clearly understand the nature
and requirements of the charter service regulation. After publication of the 2008
regulation, FTA initiated activities to educate the public, public transit agencies,
and private charter operators on provisions of the revised regulation. FTA’s
outreach activities included holding information sessions in five major cities
throughout the country and meeting with public transit and private charter industry
stakeholders. According to FTA officials, they held regular staff meetings and
tracked stakeholder issues related to the implementation of the rule through
September 2010. However, many of these efforts have since subsided.

CONCLUSION
Charter services are essential to meeting the transportation needs of Americans,
from getting them to large national events or to small occasions in their local
communities. With the issuance of its latest regulation 4 years ago, FTA took
action to resolve longstanding conflicts and misunderstandings between public
transit agencies and private charter operators about their roles in meeting charter
service needs. However, weaknesses in FTA data and continuing
misinterpretations of the regulation’s requirements still exist. By providing public
and private stakeholders with access to more timely and reliable information,
including advice and education on how to most effectively carry out the
regulation’s requirements, FTA can help ensure fair competition for charter
services while at the same time provide the flexibility permitted under the
regulation. Further, gaining a better understanding of the rule’s impact on the cost,
availability, and quality of charter service would help FTA target renewed
outreach efforts and determine whether it needs to modify the regulation.
                                                                                 14




RECOMMENDATIONS
We recommend that the Federal Transit Administrator:

1. Develop a process for FTA staff to perform periodic data quality reviews of the
   private charter registration database and the charter service docket to address
   noncompliance, inaccuracies, duplication, and timeliness of charter service
   information.

2. Develop a process to coordinate with FMCSA to periodically verify the private
   charter registration data.

3. Include a link to FMCSA’s Bus and Passenger Carrier Safety information on
   the FTA Charter Web site.

4. Resume tracking stakeholder issues and concerns, such as cost, quality, and
   availability of charter services, to determine whether revisions to the rule are
   needed, or if additional outreach and guidance is needed to help event
   sponsors, private charter operators, and public transit agencies effectively
   interpret the regulation.

5. Provide specialized outreach and guidance to help non-profit and human
   services agencies navigate the application process for Qualified Human
   Service Organization status.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA with our draft report on March 14, 2012, and received its
response on May 4, 2012. FTA’s response is included in its entirety as an
appendix to this report. We made technical clarifications in the final report, where
appropriate, based on FTA’s input to the draft report. FTA partially concurred
with recommendation 1 and fully concurred with recommendations 2, 3, 4, and 5.

For recommendation 1, FTA partially concurred, stating that the accuracy of the
information reported to the private charter registration database rests with
reporting entities. However, FTA’s administration of the database requires a level
of due diligence to maximize its effectiveness and ensure data quality. During the
course of our audit, FTA showed its commitment to providing quality data to
charter service providers, which included verifying that private charter operators
update their data every 2 years. When we pointed out several inaccuracies in the
database, FTA moved quickly to update the data. Further, we expect FTA’s
                                                                                 15


planned actions for recommendation 2, which involve coordination with FMCSA,
will also help meet the intent of recommendation 1 by leveraging existing data on
private charter operators. We consider this recommendation resolved but open
pending receipt of documentation supporting actions taken for recommendation 2.

For recommendations 2, 3, and 5, we consider FTA’s planned actions responsive
and consider these recommendations resolved but open pending receipt of
documentation supporting the actions taken.

For recommendation 4, FTA concurred and agreed to continue to conduct outreach
and monitor stakeholder issues via existing conferences for event sponsors, private
charter operators, and public transit agencies to assist them with effectively
interpreting the regulation. FTA is already a participant in national transit
conferences and conducts internal agency management meetings that include
regional offices, which are venues for obtaining ongoing feedback on the
regulation as well as identifying and addressing potential cross-cutting concerns of
charter service stakeholders. Accordingly, we consider this recommendation
resolved but open pending receipt of documentation on FTA’s specific plans to
seek input from internal and external stakeholders through existing venues.

ACTIONS REQUIRED
FTA’s planned actions for all five recommendations are responsive, and its target
action dates are appropriate. In accordance with follow-up provisions in
Department of Transportation Order 8000.1C, we request that FTA provide our
office, within 30 days of this report, documentation of its plan to seek input from
internal and external stakeholders through existing venues. We also request that
FTA provide information demonstrating completion of its planned actions. All
five recommendations will remain open pending receipt of this information.

We appreciate the courtesies and cooperation of Federal Transit Administration
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Gary Middleton, Program Director, at
(202) 366-0625.

                                         #
cc: Audit Liaison, FTA, TBP
    Audit Liaison, OST, M-1
                                                                                  16



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from November 2010 through March 2012
in accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We interviewed personnel from FTA’s Office of Chief Counsel, the Ombudsman
for Charter Services, and the Office of Program Management at FTA Headquarters
in Washington, D.C., and officials in four of FTA’s 10 regional offices. The
purpose of our interviews was to determine individual roles, responsibilities, and
direct involvement in the implementation of the 2008 charter service regulation.

To evaluate FTA’s implementation of the charter service regulation, we reviewed
FTA’s charter service final rules and demonstration report, charter service
guidance, policies and procedures, and planning and outreach documentation for
the charter service regulation. We reviewed other relevant laws, acts, and
rulemaking documents that established the charter service regulation as well as
amendments to the final rules. We reviewed congressional appropriations
documents and court filings and decisions associated with the charter service
exception for King County, Washington.

We reviewed the process FTA used to respond to requests for decisions from
private charter operators and public transit agencies by obtaining FTA’s charter
service indices and charter service records in the Federal docket system for the
years 2008 through 2011. We analyzed advisory opinions, petitions for exceptions,
general complaints, cease and desist orders, and complaints for removal. We
assessed the number of requests filed and FTA’s timeliness to render a binding
decision based on the charter service regulation. In addition, we reviewed
quarterly reports from public transit agencies that provided charter service under
the regulation’s exceptions guidelines.

We examined 609 registered private charter operators in FTA’s private charter
registration database to ensure the accuracy and reliability of the data. We
obtained electronic files of charter service registrants and compared the data to the
Federal Motor Carrier Safety Administration’s Safety and Fitness Electronic
Records and Licensing and Insurance Public systems to ensure that the charter
company held proper operating authority, licensing, and insurance; was not barred
from providing charter service; and met requirements of the charter service



Exhibit A. Scope and Methodology
                                                                                 17


regulation. We also verified the data compared in both systems for accuracy and
consistency.

To assess the impact of the 2008 charter service regulation revision on the cost,
availability, and quality of charter service at selected locations, we conducted our
fieldwork using a case study approach that included meetings with motor coach
and bus associations, private charter operators, public transit associations, public
transit agencies, local government officials, and event organizers. We selected the
case studies based on geographic location, population, receipt of Federal funds,
and information gathered through discussions with public and private
stakeholders. Our four case study locations were the Baltimore, Maryland, and
Washington, D.C., area; Seattle, Washington; the Augusta, Georgia, and Florence,
South Carolina area; and the Des Moines and Ames, Iowa, area. We also
interviewed regional counsel and administrators in Atlanta, Georgia; Kansas City,
Missouri; Philadelphia, Pennsylvania; and Seattle, Washington, the four FTA
regions where we conducted case studies.

We used key factors in selecting a mix of case study locations. Specifically, the
Baltimore, Maryland, and Washington, D.C., area is a large-sized urban area that
was easily accessible to our auditors; Seattle, Washington, is exempt from the
2008 charter service regulation; the Augusta, Georgia, and Florence, South
Carolina, area is a small-sized rural area; and Des Moines and Ames, Iowa, is a
mid-sized urban and rural area with known issues concerning the charter service
regulation. For our case studies, we interviewed and gathered documentation from
stakeholders, including event organizers and sponsors, public transit agencies,
local government officials, and private charter operators. We reviewed quality of
service, ridership, safety and security requirements, accessibility, changes in
service, and cost-of-service data associated with the regulation.




Exhibit A. Scope and Methodology
                                                                            18




EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FEDERAL TRANSIT ADMINISTRATION (FTA)

Offices                                         Location

FTA Headquarters                                Washington, DC

FTA Region 3                                    Philadelphia, PA

FTA Region 4                                    Atlanta, GA

FTA Region 7                                    Kansas City, MO

FTA Region 10                                   Seattle, WA



BALTIMORE, MD / WASHINGTON, DC CASE STUDY

Organization                   Location         Type

Maryland Transit               Baltimore, MD    Public Transit
Administration

Washington Metropolitan Area   Washington, DC   Public Transit
Transit Authority

Bill Rohrbaugh’s Charter       Manchester, MD   Private Charter
Service, Inc.

Golden Ring Travel             Baltimore, MD    Private Charter

Preakness                      Baltimore, MD    Event Sponsors/Organizers

Ravens                         Baltimore, MD    Event Sponsors/Organizers

Baltimore City Department of   Baltimore, MD    Government Entity
Transportation



SEATTLE, WA CASE STUDY

Organization                   Location         Type

King County Metro Transit      Seattle, WA      Public Transit

Starline Luxury Coaches        Seattle, WA      Private Charter

Bellair Charters               Ferndale, WA     Private Charter



Exhibit B. Organizations Visited or Contacted
                                                                               19


NorthWest Navigator Luxury     Portland, OR        Private Charter
Coaches

Mariners                       Seattle, WA         Event Sponsors/Organizers

Seafair                        Seattle, WA         Event Sponsors/Organizers

Seahawks                       Seattle, WA         Event Sponsors/Organizers

University of Washington       Seattle, WA         Event Sponsors/Organizers
Athletic Department

Seattle Department of          Seattle, WA         Government Entity
Transportation

Seattle Police Department      Seattle, WA         Government Entity



AUGUSTA, GA / FLORENCE, SC CASE STUDY

Organization                   Location            Type

Augusta Public Transit         Augusta, GA         Public Transit

Richmond County Transit        Augusta, GA         Public Transit

Pee Dee Regional               Florence, SC        Public Transit
Transportation Authority

Horizon Motor Coach            Harlem, GA          Private Charter

Lewis Bus Lines                Augusta, GA         Private Charter

Savannah River Charters and    North Augusta, SC   Private Charter
Tours

Augusta Convention and         Augusta, GA         Event Sponsors/Organizers
Visitors Bureau

Augusta Sheriff’s Department   Augusta, GA         Government Entity

Augusta Traffic Engineering    Augusta, GA         Government Entity
Division



DES MOINES and AMES, IA CASE STUDY

Organization                   Location            Type

CyRide                         Ames, IA            Public Transit




Exhibit B. Organizations Visited or Contacted
                                                                                        20


Des Moines Area Regional        Des Moines, IA              Public Transit
Transit Authority

Iowa Public Transit             Various Locations in Iowa   Public Transit
Association

CIT Charters, Inc.              Ames, IA                    Private Charter

Hawkeye Stages, Inc.            Des Moines, IA              Private Charter

Trans Iowa Charters, LLC        Des Moines, IA              Private Charter

Ames Convention and Visitors    Ames, IA                    Event Sponsors/Organizers
Bureau

HyVee Triathlon                 Des Moines, IA              Event Sponsors/Organizers

Iowa State University           Ames, IA                    Event Sponsors/Organizers

Iowa State Fair Authority       Des Moines, IA              Event Sponsors/Organizers

The Principal Charity Classic   Urbandale, IA               Event Sponsors/Organizers

Des Moines Area Metropolitan    Des Moines, IA              Government Entity
Planning Organization

City of Des Moines Traffic      Des Moines, IA              Government Entity
Division

Des Moines Police               Des Moines, IA              Government Entity
Department



OTHER PUBLIC TRANSIT AGENCY

Organization                    Location                    Type

Rochester Genesee Regional      Rochester, NY               Public Transit
Transportation Authority



INDUSTRY ASSOCIATIONS AND UNIONS

Organization                    Location                    Type

Amalgamated Transit Union       Washington, DC              Transit Union (Public and
                                                            Private)

American Bus Association        Washington, DC              Industry Association




Exhibit B. Organizations Visited or Contacted
                                                                       21


American Public              Washington, DC     Industry Association
Transportation Association

Community Transportation     Washington, DC     Industry Association
Association of America

United Motorcoach            Alexandria, VA     Industry Association
Association




Exhibit B. Organizations Visited or Contacted
                                                                                   22




EXHIBIT C. SIGNIFICANT CHANGES TO THE CHARTER
SERVICE REGULATION
Revised definition of charter service – This was a controversial provision during
the negotiated rulemaking discussions. FTA attempted to clarify the definition,
while also offering flexibilities through exceptions in the rule to fulfill public
transit agencies community-based public transportation missions. Under the
revised regulation, public transportation agencies are considered to be providing
charter service if a third party requests exclusive use of a bus or van for a
negotiated price or pays for the transportation, or if the transportation is to events
that occur on an irregular basis or for a limited duration, and where a higher rate
than the usual public transit fare is charged.
New private charter registration database – This allows private charter operators
to indicate areas where they would be willing to perform charter service. In
addition, public transit agencies that receive requests for charter service can notify
private charter operators in their geographic area of the business opportunity. After
receiving a request for charter service, a public transit agency may (1) decline to
provide the service with or without referring the person requesting the service to
the charter registration Web site, (2) provide service under one of the charter
service exceptions, or (3) provide notification of the request to registered charter
providers. If a public transit agency is interested in providing the service, the
agency must send an e-mail notification to charter operators who are registered on
the FTA Web site in the transit agency’s geographic service area. A public transit
agency may provide the service if no private charter operator responds to the
notification.
New Qualified Human Service Organization Registry – This allows qualified
human service organizations that serve individuals with low income, advanced
age, or disabilities to register with FTA to receive free or reduced rate services
from a public transit agency. The charter service regulation provides an automatic
exception to the regulation for qualified human service organizations that receive
funding from one of 64 Federal human service programs listed in Appendix A of
the regulation. Those qualified human service organizations that do not receive
assistance from one of the programs listed in the regulation may apply for an
exception through FTA’s Qualified Human Service Registry.
Exemptions and exceptions for when public transit agencies may provide charter
service – Exemptions from the rule include transporting transit employees for
training purposes in nonurbanized areas, performing emergency preparedness and
planning operations, responding to immediate emergencies, and serving
populations covered by specific Federal grants dedicated to program purposes.
FTA also provides exceptions that allow transit agencies to conduct charter service

Exhibit C. Significant Changes to the Charter Service Regulation
                                                                                                              23


for Government officials on Government business for up to 80 hours per year,
QHSOs, and private charter operators leasing vehicles and drivers from the public
transit agency. Public transit agencies can also provide charter service when
service is agreed upon by all private charter operators registered in the same
geographic area in FTA’s database. Finally, public transit agencies can provide
charter service by petitioning the FTA Administrator for an exception due to
(1) events of regional or national significance, (2) hardship for areas under
200,000 in population, and (3) unique time-sensitive events.
Processes for advisory opinions, complaints, and hearings and penalties for
violations of the regulation – Private charter operators and public transit agencies
may request formal advisory opinions and cease and desist orders 16 related to
charter service issues. They typically request an advisory opinion from FTA to
help them interpret and apply the regulation correctly. According to the regulation,
FTA will make every effort to respond to a request for an advisory opinion within
10 days of receipt of a request that includes the required information. 17 A more
detailed complaint process allows private charter operators and public transit
agencies to petition for the removal of a registered charter provider or QHSO from
the charter registration Web site for reasons such as bad faith, fraud, lapse of
insurance, and lapse of documentation. 18 Private charter operators may also make
complaints against public transit agencies providing service that is prohibited
under the charter service regulation. 19 To improve transparency, FTA created
public dockets in the Federal Document Management System for advisory
opinions, petitions to the administrator for exceptions from the regulation,
complaints, and hearings.




16
     A request for a cease and desist order is a remedy that FTA may pursue if a public transit agency is found in
     noncompliance with the regulation.
17
     49 C.F.R. § 604.19(b).
18
     49 C.F.R. § 604.26.
19
     49 C.F.R. § 604.27(a).


Exhibit C. Significant Changes to the Charter Service Regulation
                                                           24




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Gary Middleton                          Program Director

Krystal Patrick                         Project Manager

Oleg Michalowskij                       Senior Auditor

Chris Minovich                          Senior Auditor

Calvin Moore                            Analyst

Doris Kwong                             Analyst

Emily Norton                            Analyst

Harriet Lambert                         Writer/Editor

Andrea Nossaman                         Senior Writer




Exhibit D. Major Contributors to This Report
                                                                                                                         25




 APPENDIX. AGENCY COMMENTS

                                                                             Memorandum
            U.S. Department
            of Transportation
            Federal Transit
            Administration


Subject:     INFORMATION: Management Response to OIG Draft                                 Date:    May 3, 2012
             Report on FTA’s Implementation of the Charter Service
             Regulation


  From:      Peter Rogoff, Administrator                                               Reply to     Angela Dluger
             Federal Transit Administration                                            Attn. of:    (202) 366-5303

      To:    Calvin L. Scovel III
             Inspector General


 FTA Charter Regulation Focused On Market Based Competition

 The fundamental purpose of the Federal Transit Administration’s (FTA) charter service
 regulation is to prevent unfair competition by Federally-funded public transportation agencies
 (FTA grantees) for services that can be rendered by private charter bus operators.
 Historically, issues had arisen in some locations across the country with transit operators who
 receive Federal assistance, raising the perception of unfair competition for charter service
 against operators who do not receive Federal funds. Since the 1970’s, FTA has served in a
 limited, market-focused role with regard to charter operations. 1 Specifically, FTA’s charter
 service regulation allows FTA grantees to perform charter service only if there are no private
 operators willing and able to provide that service. This would include situations where, for
 example, private operators do not have sufficient equipment to perform the service.
 Moreover, the rules require private operators to act in a commercially reasonable manner in
 setting rates for their services.

 FTA Does Not Currently Have Safety Regulatory Authority

 FTA’s role with regard to charter operations and availability is extremely limited. FTA is, by
 statute, not a safety regulatory agency and consequently does not ensure the compliance or
 suitability of private charter operators who register with FTA’s Private Charter Registration

 1
     Appendix 1 offers a more detailed description of the statutory and regulatory history of FTA’s role with the charter bus
     industry.


 Appendix. Agency Comments
                                                                                             26


Tool in order to be notified of potential business opportunities. It is also not FTA’s role to
regulate the charter marketplace, which means that FTA does not have legal authority over
private charter operators and cannot regulate the cost of providing that service to individual
customers. Instead, the Federal Motor Carrier Safety Administration (FMCSA) issues,
administers, and enforces the Federal Motor Carrier Safety Regulations and Commercial
Regulations that apply to commercial motor vehicles transporting passengers. FMCSA sets
minimum safety standards that motorcoach companies must follow for the buses/vehicles they
operate and the physical qualifications and operating rules for their drivers.

Charter Operators Need to Ensure They Provide Complete and Accurate Data

The data issues described in the draft report do not inhibit the effectiveness of FTA’s
regulation. While the draft report identified a few duplicate and incomplete private charter
operator records on the FTA registration website, the effect of these issues is limited since the
goal of the registration process is to provide private charter operators with knowledge of a
potential business opportunity. We must emphasize that this information has no other effect,
particularly with regard to safety. For example, based on OIG’s analysis, 97 percent of
registered private charter operators will receive business opportunity notices as intended, with
the remaining few, which failed to indicate the geographic areas in which they are available to
provide service, experiencing the outcome of providing inaccurate information. Inasmuch as
this information is provided by the private charter operators, it behooves them to ensure that
the information that they provide is both accurate and complete. It does not highlight the need
to provide any additional intervention by the Federal government to fulfill the intent of
existing statute or regulation.

While OIG’s charge was to review the cost, quality, and availability of charter services, the
statutory basis of FTA’s charter regulations were not written to address these issues; hence,
the regulation does not have specific mechanisms to track or address these issues. FTA
conducted numerous outreach and training sessions following the publication of the regulation
in 2008 and remains available to provide specific technical assistance to its grantees regarding
this regulation. The outreach materials are posted on FTA’s website, grantees have staff
points of contact at FTA’s regional offices and the docket system is available to review past
decisions and to request new advisory opinions.

FTA uses oversight tools, such as its Triennial Reviews and State Management Reviews, to
assess grantees’ compliance with its charter requirements. Based on the significant decline in
inquiries from participants since 2010, the extensive guidance available, and the use of these
oversight mechanisms, FTA has reason to believe there is widespread comprehension of the
requirements, and effective implementation of the rule. This is somewhat at odds with the
limited anecdotal evidence of confusion presented in the report, which should provide a
clearer sense of the extent of this issue based on its analysis.




Appendix. Agency Comments
                                                                                              27


RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a process for FTA staff to perform periodic data quality
reviews of the private charter registration database and the charter service docket to address
noncompliance, inaccuracies, duplication, and the timeliness of charter service information.

Response: Concur in Part. The FTA charter service regulation is intended to prevent public
transit agencies from unfairly competing with private charter operators. The Private Charter
Registration Tool (the Tool) is designed to provide the public and public transportation
agencies with information regarding private charter operators serving their areas. FTA
conducts data quality reviews when new private operators register, as well as when the private
operators re-register. The Tool is the mechanism that private charter providers use to self-
report their contact information in order to receive notices of upcoming charter opportunities.
As such, it is important that the registering private charter operator provides complete and
accurate contact information. As a result, the responsibility for the accuracy of the
information reported rests with those entities reporting and should not be shifted to the
Federal government, particularly as this data serves the interests of those entities and does not
directly bear on inherently governmental functions such as safety. Therefore, FTA believes
its current data quality practices are adequate.

Responses to Advisory Opinion Requests or Complaints received through the charter service
docket are provided directly to the requestors in advance of posting to the docket. Decisions
and responses are updated in the docket as they become available. FTA will make every
effort to issue Advisory Opinions and post timely decisions to the docket. While no further
action is planned with regard to the registration data base, FTA will conduct action regarding
the docket on a continuous basis. We therefore ask that this recommendation be closed.

Recommendation 2: Develop a process to coordinate with FMCSA to periodically verify the
private charter registration data.

Response: Concur. FTA will develop a process to coordinate with FMCSA to review the
operating status of private charter operators with DOT numbers that are registered in FTA’s
private charter registration database. FTA expects to implement this process by September
30, 2012.

Recommendation 3: Include a link to FMCSA’s Bus and Passenger Carrier Safety
information on the FTA Charter website.

Response: Concur. FTA will provide a link on its Charter Bus Registration website to the
FMCSA Bus and Passenger Carrier Safety information page,
http://www.fmcsa.dot.gov/safety-security/pcs/Index.aspx, which contains information for
passenger carriers and the traveling public about FMCSA’s passenger carrier program and
regulations no later than June 30, 2012.




Appendix. Agency Comments
                                                                                                28


Recommendation 4: Resume tracking stakeholder issues and concerns, such as cost, quality,
and availability of charter services, to determine whether revisions to the rule are needed, or if
additional outreach and guidance is needed to help event sponsors, private charter operators,
and public transit agencies effectively interpret the regulation.

Response: Concur and completed. FTA’s charter service regulation issued in 2008 was a
negotiated rulemaking that allowed for significant stakeholder input, notice and comment, and
was published in the Federal Register. The regulation is intended to implement statutory
provisions that prohibit public transit agencies from competing with private charter operators.
It was not intended to address cost or quality of the service provided by private charter
operators.

FTA already centrally tracks issues, particularly availability of charter service, via Advisory
Opinion Requests and Complaints received through the charter docket. The precipitous drop
in Advisory Opinion Requests and Complaints since 2010 indicates that a revision is not
needed at this time. FTA will continue to conduct outreach at transit conferences and
highlight existing training to assist event sponsors, private charter operators, and public transit
agencies in effectively interpreting the regulation.

Recommendation 5: Provide specialized outreach and guidance to help non-profit and
human services agencies navigate the application process for Qualified Human Service
Organization status.

Response: Concur. FTA will prepare and provide specialized outreach and guidance to help
non-profit and human services agencies navigate the application process for Qualified Human
Service Organization status by December 31, 2012. FTA will arrange for a link on FTA’s
website to make available charter email questions and answers on this specific topic and will
prepare a presentation on this topic which can be used at conferences.




Appendix. Agency Comments
                                                                                             29


Appendix I

Statutory and Regulatory Background

The National Mass Transportation Assistance Act of 1974 2 first required, as a condition of
receipt of Federal financial assistance, that grantees not use Federal funding to foreclose
private operators from providing charter bus services where such private operators were
willing and able to provide that service. FTA’s predecessor agency, the Urban Mass
Transportation Administration, first promulgated regulations to carry out the statutory
mandate in 1976. The statutes and regulations remained largely unchanged until the
enactment of Section 3023(d) of the Safe, Accountable, Flexible, Efficient Transportation
Equity Act: A Legacy for Users (Pub.L. 109-59; Aug. 10, 2005) (SAFETEA-LU) in 2005.
With the enactment of SAFETEA-LU, the report of the Conference Committee directed FTA
to “initiate a rulemaking seeking public comment on the regulations implementing [49
U.S.C.] section 5323(d),” and to consider a number of specific issues pertaining to services
for local governments and private non-profit agencies, use of the Internet for communications
about the rules, enforcement of the rules, and the procedures for complaints and
administrative appeals. See generally, the preamble to the January 14, 2008, regulations at 73
Fed.Reg. 2326-45. The regulation also protects federally funded assets which are intended to
be used for public transportation from being used for non-public purposes.

To carry out the directives of the SAFETEA-LU conference report—and in compliance with
the Negotiated Rulemaking Act of 1990, 5 U.S.C. §§ 56,1 et seq.—FTA convened a Charter
Bus Negotiated Rulemaking Advisory Committee (CBNRAC) comprised of 22 persons
representing a cross-section of private charter bus operators, state and local public
transportation agencies, organized labor, and regional and national associations from across
the United States. From May through December 2006 the CBNRAC held five two- and three-
day sessions to negotiate nearly a complete revision of the regulations, which ultimately led to
FTA’s issuance of a Notice of Proposed Rulemaking (NPRM) on February 14, 2007, at 72
Fed.Reg. 7526-46. As a practical matter, an approximate 80 percent of the regulatory text set
forth in the NPRM reflected the consensus reached through the CBNRAC. Although the
committee members could not agree on all of the issues they debated—including a precise
redefinition of “charter service,” and the meaning of the term “pattern of violations” in the
remedies clause of 49 U.S.C. § 5323(d)(2)(C) (as amended by SAFETEA-LU Section
3023(c))—FTA was able to draft the balance of the NPRM based on its own experience and
judgment, and the data and information developed during the negotiations.

FTA received more than 450 comments on the February 2007 NPRM from interested persons
and organizations. Based on those comments, the agency made a number of revisions to the
text of the proposed rules and deliberately incorporated a three-month lag between the
promulgation of the final regulations in January 2008 and their effective date of April 30,
2008. FTA used that three-month “grace” period to conduct extensive outreach with grantees,
private charter operators and a number of other stakeholders, and to fine-tune its Internet
protocols for electronic registration of private charter operators interested in providing
services within the grantees’ geographical service areas. Notwithstanding the difficult issues
2
    Pub.L. 93-503; Nov. 26, 1974

Appendix. Agency Comments
                                                                                              30


addressed throughout the rulemaking, FTA received a great deal of positive feedback about
the rules from both public and private operators, and appreciation for its efforts to educate the
grantees in how to comply with the rules.

The notification for private operators of opportunities to provide charter bus services was
revised under the regulation based on input from all stakeholders. FTA grantees send an
email notification of the charter opportunity to the list of private providers registered in the
grantee’s geographic service area. If no registered charter provider responds to that email
notice, the grantee is free to perform the service. See, 49 C.F.R. §§ 604.9 and 604.14.
Therefore, there should not be significant availability issues. If private operators cannot
perform the city-wide and special events charter bus services that grantees had previously
provided, then the grantees are able to continue providing those services. However, as a
result of the regulation, FTA expected that a number of private charter operators across the
United States would increase their capabilities and position themselves to perform many of
the charter services previously provided by FTA grantees. For a number of larger and smaller
events, private providers have stepped in to provide the service, i.e., for the Kentucky Derby
and the Indy 500. The rule requires registration every two years to ensure that notification
information is current and correct. FTA believes that the paperless process for notification is
simpler and more efficient than the old process, saving both time and resources for grantees.




Appendix. Agency Comments
